U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Len Davis v. United States of America,
S.Ct. No. 20-7553

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 18,
2021, and placed on the docket on March 25, 2021. The government’s response is due on April
26, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7553
DAVIS, LEN
USA

REBECCA L. HUDSMITH
FEDERAL PUBLIC DEFENDER
102 VERSAILLES BOULEVARD
SUITE 816
LAFAYETTE, LA 70501
337-262-6336
REBECCA_HUDSMITH@FD.ORG
337-262-6605(Fax)

